No?

il %
w&i

•WHtfUL
IN THE

Supreme Court. U.S.
FILED

SUPREME COURT OF THE UNITED ST AT ES

OCT 0 6 2021

OFFICE OF THE CLERK

QnyIgJfVy icUMe.

A \:

- PETITIONER

(Your Name)

vs.
&,

fA. a 11

- RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Q(\'\W)t

V^ppgoK

(LiiTUAj-)-

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

fh yd (x

U

(Your Name)

\\^ W)p\(aWpa.LoDp 4KUr^
(Address)

V-iw^l-n ciir?g>^
(City, State, Zip Code)

/fesT T7 V 20^ 2_
(Phone Number)

QUESTION(S) PRESENTED

1. Why are Womens’ Constitutional Rights being violated under the 14th
Amendment, for both procedural Due Process and Life, Liberty and Property,
legally across the Nation?
How is it that any other criminal matter regarding violence or theft, would be
reviewed in a “procedural due process hearing” orally and materially prior to a
judgement, and prior to being sent to a civil dispute, other than Domestic
Violence Cases involving a child?
Why is it that the tactical advantage in this manner that is violating Due Process
and resulting in the removal of Life, Liberty or Property of the victim allowed,
when the law clearly states throughout the Nation that it is detrimental for the
child to not be in the custody of the perpetrator, then removing the victim from the
child, placing the perpetrator in control of the court's opinion, resulting in
Domestic Relations that cannot and will not be heard in a Federal Court
Jurisdiction, even when the issue is not custody, but the violations of the
Constitution's 14th Amendment that occurred in the court proceedings?
If false “hearsay” evidence was used and the victim proved with material
evidence that it wasn’t true, and a 1970 text message was the very next text
claimed by the perpetrator after the assault and the victim was of color, would
they be heard in Federal Court? If the victim did not have a child with the
perpetrator and the same a previous statement occured, would they be heard in
Federal Court?
2. Why is it detrimental for not only the child involved in Domestic Violence, the
courts influence on the community in both the present and the future, but also the
individual rights of the victim of physical, sexual, financial, verbal and religious
assault on a Constitutional level?

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT..
CONCLUSION

INDEX TO APPENDICES
APPENDIX A 0

O.S - Oi^YlC^r
pi^rYl C'-{r~ oi-"

APPENDIX B

•

t
A/L*-L-jisv") -W Q

*>€CdAci

ClaS^P \oUsY\A—

APPENDIX C •

\Jb\^vib^—
n-f- <o£-

APPENDIX D

APPENDIX E

APPENDIX F

•? lax

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
DO All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

04- (WOJLU

UN­

RELATED CASES

• (War-eli! v/
'ia

f ^ (Oo. lU>-)-o££A t£*/vuLu
akjo

ZMcau4-

o^HjOuwc:

Jo-ei'U-cP'cdl ao^u^-W 2M

#

0 Uyimn v Am^U; ( po-p <\Jd. Uo-i-oCft? £ Pa/bu/
i a Vve, <iec^cL (Lircxu^
Pfiawn:: m
l cHlu^ i<g
#
• AAarelli v/
DCMd l '4^-cjJ- ot>o^?
0WS~v/Gfc_p , OraV^LSUVcs
D*^Tc^0>W MOX4U, ^ ^e&jCKhe/vp- OVkr-eeL

,4610.

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

STATE v CARTER (1988)
JK v. SK, CA- 2019
Juarez v. Juarez, No. 33668-9-111

STATUTES AND RULES
\

Amendment XIV, Section 1.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

pCl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
D<3 is unpublished.

A__to

_to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[)<J is unpublished.
(X3 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix <V))Ar to the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of
o-T -ft-c
C* fCMrlappears at Appendix C-^.— to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[X3 is unpublished.
1.

court

JURISDICTION
[)<3 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
|
______ .
frQ No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
__, and a copy of the
Appeals on the following date: ---------------—
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

1X3 For cases from state courts:
The date on which the highest state court decided my case wasV7.
A copy of that decision appears at Appendix C——.
[ ] A timely petition for rehearing was thereafter denied on the following date:
__________________and a copy of the order denying rehearing
appears at Appendix--------- .
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No.----A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Amendment XIV. Section 1. All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall abridge the '
privileges or immunities of citizens of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

42 U.S. CodeS 1983 - Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage,
of any State or Territory or the District of Columbia, subjects, or causes to be subjected,
any citizen of the United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought against a judicial officer for an
act or omission taken in such officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable exclusively to the
District of Columbia shall be considered to be a statute of the District of Columbia.

Hawaii Revised Statute §571-46
Criteria and procedure in awarding custody and visitation; best interest of the child, (a)
In actions for divorce, separation, annulment, separate maintenance, or any other
proceeding where there is at issue a dispute as to the custody of a minor child, the
court, during the pendency of the action, at the final hearing, or any time during the
minority of the child, may make an order for the custody of the minor child as may seem
necessary or proper. In awarding the custody, the court shall be guided by the following
standards, considerations, and procedures:
(9) In every proceeding where there is at issue a dispute as to the custody of a child, a
determination by the court that family violence has been committed by a parent raises a
rebuttable presumption that it is detrimental to the child and not in the best interest of

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

the child to be placed in sole custody, joint legal custody, or joint physical custody with
the perpetrator of family violence. In addition to other factors that a court shall consider
in a proceeding in which the custody of a child or visitation by a parent is at issue, and
in which the court has made a finding of family violence by a parent:
(A) The court shall consider as the primary factor the safety and well-being of the child
and of the parent who is the victim of family violence;
(B) The court shall consider the perpetrator's history of causing physical harm, bodily
injury, or assault or causing reasonable fear of physical harm, bodily injury, or assault to
another person; and
C) If a parent is absent or relocates because of an act of family violence by the other
parent, the absence or relocation shall not be a factor that weighs against the parent in
determining custody or visitation;
(10) A court may award visitation to a parent who has committed family violence only if
the court finds that adequate provision can be made for the physical safety and
psychological well-being of the child and for the safety of the parent who is a victim of
family violence;
(11) In a visitation order, a court may:
(A) Order an exchange of a child to occur in a protected setting
(B) Order visitation supervised by another person or agency;
(C) Order the perpetrator of family violence to attend and complete, to the satisfaction
of the court, a program of intervention for perpetrators or other designated counseling
as a condition of the visitation;
(D) Order the perpetrator of family violence to abstain from possession or consumption
of alcohol or controlled substances during the visitation and for twenty-four hours
preceding the visitation
(E) Order the perpetrator of family violence to pay a fee to defray the costs of
supervised visitation
(F) Prohibit overnight visitation

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

(G) Require a bond from the perpetrator of family violence for the return and safety of
the child. In determining the amount of the bond, the court shall consider the financial
circumstances of the perpetrator of family violence;
(H) Impose any other condition that is deemed necessary to provide for the safety of
the child, the victim of family violence, or other family or household member; and
(I) Order the address of the child and the victim to be kept confidential;

Hawaii Revised Statute 586-3 Order for protection
(a) There shall exist an action known as a petition for an order for protection in cases of
domestic abuse.
(b) A petition for relief under this chapter may be made by:
(1) Any family or household member on the member’s own behalf or on behalf of a
family or household member who is a minor or who is an incapacitated person as
defined in section 560:5-102 or who is physically unable to go to the appropriate place
to complete or file the petition; or
(2) Any state agency on behalf of a person who is a minor or who is an incapacitated
person as defined in section 560:5-102 or a person who is physically unable to go to the
appropriate place to complete or file the petition on behalf of that person.
(c) A petition for relief shall be in writing upon forms provided by the court and shall
allege, under penalty of perjury, that: a past act or acts of abuse may have occurred;
threats of abuse make it probable that acts of abuse may be imminent; or extreme
psychological abuse or malicious property damage is imminent; and be accompanied by
an affidavit made under oath or a statement made under penalty of perjury stating the
specific facts and circumstances from which relief is sought.
(d) The family court shall designate an employee or appropriate nonjudicial agency to
assist the person in completing the petition.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Hawaii Revised Statute 6707-711 Assault in the second degree. (1) A person
commits the offense of assault in the second degree if: (a) The person intentionally,
knowingly, or recklessly causes substantial bodily injury to another;
(b) The person recklessly causes serious bodily injury to another;
(c) The person intentionally or knowingly causes bodily injury to a correctional worker,
as defined in section 710-1031(2), who is engaged in the performance of duty or who is
within a correctional facility
(d) The person intentionally or knowingly causes bodily injury to another with a
dangerous instrument;

Hawaii Revised Statute §709-906
Abuse of family or household members; penalty. [Repeal and reenactment on June 30,
2026. L 2020, c 19, §15.] (1) It shall be unlawful for any person, singly or in concert, to
physically abuse a family or household member or to refuse compliance with the lawful
order of a police officer under subsection (4). The police, in investigating any complaint
of abuse of a family or household member, upon request, may transport the abused
person to a hospital or safe shelter.

STATEMENT OF THE CASE

On August 11, 2016 Morelli filed a preplanned TRO. Her mother was landing that day
from Florida to assist Morelli with the care of her son while in transition to a home in
which Morelli had hoped would be protected by law under Hawaii Revised Statute
§571-46. The TRO Morelli v Hyman granted her a protective order until the hearing on
August 24, 2016. At the hearing, Morelli was not allowed to present discovery or
testimony in regards to the multiple assaults. Morelli was not allowed to show her
medical records stating some of the verbal abuse, and property damage. Morelli was
not allowed to present photos of substantial damage to her face that was time stamped,
showing the increase of swelling and in correlation of the 911 calls. Mr. had already
used Coerson to keep Morelli unlawfully imprisoned, and financial abuse to ensure that
Morelli could never leave without his control. Instead a “status quo” protective order
allowed Hyman to have visitation with ABH and walk up to her front door if necessary.
ABH was also on the protective order because Morelli noticed that her son stopped
talking about 30 days after she started working and ABH was in the care of Hyman.
Morelli was sexually assaulted with ABH present on the morning of 08/07/2016, that
was the day Morelli knew both her and her son could not take anymore and called her
mother to fly out and file the protective order.
During the hearing Hyman was granted visitation, and the criminal acts by perpetrator
Hyman and a future protective order was assigned and to be determined by the
Custody hearing on September 14, 2016. This allowed Hyman to create false stories
and falsified evidence with not one legitimate material fact, to take over the court
proceedings. Annie Clifford (Annie Neikirk, Annie Huntley, Annie Bronson) presented
several declarations under Perjury, making up stories about Morelli’s claims to file a
false TRO, all in which Morelli proved with material discovery was false. These stories
Annie created and the 1970 text message that was falsified turned the court against
Morelli and to this day her evidence was never heard. Even the “expert witness” who
has made known false claims against women in the Second Circuit Court, claimed
Morelli was paranoid, not taking in account the mild PTSD and numerous text
messages of verbal and financial abuse from Hyman. It should be know from the
Judges on who review this Petition, that women under extreme circumstances can have
symptoms of abuse and are listed in the “A JUDGE’S GUIDE:MAKING
CHILD-CENTERED DECISIONS IN CUSTODY CASES Second Edition American Bar
Association Child Custody and Adoption Pro Bono Project, A Project of the Standing
Committee on Pro Bono and Public Service and the Family Law Section American Bar
Association” that most women of abuse are taking a lot of responsibility to make an

STATEMENT OF THE CASE
escape, ask the court for intervention, and continually being apart of the legal system
with no prior knowledge of how it works, only the truth of the abuse and the effects that
they wish to seek relief from.
I am asking for review of the material facts that were never allowed to be presented in a
hearing, not for the intention of regaining custody, but review the process and procedure
that should be review and have the Supreme Court recognize that most Domestic
violence cases are women, and since its domestic a majority of those victims have
children. By not allowing criminal investigative processes in the court to be determined,
sending a criminal action to spit asset, it is detriment to the child, the child's future as a
witness of violence, but also the interaction that child will have in the community in the
future having the same statistics as a victim of abuse themselves.
Using false evidence as my 1970 text and false testimony can not be admissible in any
other proceeding. The issue the domestic violence is that most victims who are women
have been coerced and controlled financially, therefore are prose and need or require
the assistance of the community, not like the county of Maui tha has not one pro bono
Lawyer, not one Lawer that assist specifically in my case, as I am now someone the
wrong doer by asking the court for relief of my fundamental rights a human being. In
addition the Pro Se litigant, forced to have no assistance can now Never receive the
benefit of a mistrial when a 1970 text message is the supposed net text after being
raped, and when the Judge takes everything like in my case, I couldn’t even speak of
my Perpretaro even if it was true, therefore no GOFUND me, therefore I was on the
street with nothing and no one to help and no way I could file an appeal when surviving.
This is a crime against humanity, specifically women, because once all these events
happen, Domestic Relations and being a state court loser say, I can't be heard on a
Federal Level even when my 14th Amendment was clearly violated.
I urge you to please, read my case and use my case as an example of why revisions
and clear procedural elements should be defined when a Domestic Violence case
involving a child is at issue within the court procedure. I do not seek fame, nor money,
but only my freedom and my liberty that I lost. There truly is no amount of money in this
world that can give me back my time and the years that were taken from me with my
son.

REASONS FOR GRANTING THE PETITION

To avoid erroneous deprivations for the right for Women to receive the application of the 14th
Amendment and ensure equal protection under the color of law during Domestic Violence court
proceedings.
In the STATE v CARTER (1988), The Supreme Court went against their own rules to correct a
matter that was racially motivated, by having false and altered evidence and false testimony.
The only difference in my case is I am a woman and I was not convicted of a crime, therefore
there is no action to be overturned.
The Supreme Court knows that Domestic Violence is bad for the economy, and with our ever
changing restrictions, declining economy, the nation cannot afford for the continuation of
civilians Constitutional and statutory laws to be violated, integrating the criminal/perpetrator in
society to continue the cycle with someone else or maybe even the child involved, instead of
having social control.

Cases similar to mine:
JK v. SK
CA - 2019
In this appeal of a protection order denial, DV LEAP and pro bono counsel Sheppard Mullin filed
an amicus brief in support of the petitioner, a rape survivor, addressing the trial court’s biased
reasoning and rulings. The court record was replete with examples of the judge’s reliance on
irrelevant facts and inaccurate stereotypes, including what the survivor wore the night of the
attack; that she co-parented with her alleged abuser, who was also the father of her child; and
that she didn’t immediately disclose the attack the way a 'real' rape survivor would. The amicus
brief identified the court’s express and implicit assumptions about survivor behavior as
examples of well-known "rape myths," which are unsupported by empirical evidence and, in this
case, likely affected the ultimate decision. The case is pending. Retrieved on 10/06/2021, from
https://wwwdvleap.org/legal-resource-library-categories/briefs-court-opinions.

Ms. J v. Mr. J
WASHINGTON COURT OF APPEALS - 2016 WASH. APP. LEXIS 2150
In this case the trial court refused to issue a full-term protection order for a survivor who had
suffered a long history of domestic violence by her husband. Instead, the court issued a
short-term protection order for 65 days to keep things "status quo" and directed the parties to
REASONS FOR GRANTING THE PETITION

seek relief in a divorce proceeding that the abuser had initiated. DV LEAP, along with pro bono
law firms K & L Gates and Baker McKenzie filed an amicus brief arguing that short-term
protection orders are unsafe, disempowering to survivors, contrary to the national trend toward
to increase the duration of protection orders, and undermine the constitutional rights to parent
one’s children and to access to justice. The appellate court reversed, holding that the trial
court’s ruling contradicted WA’s protection order statute. The appellate court’s opinion also
recognized (1) the dangers survivors experience when they have to come to court multiple
times to face their abusers and (2) that denying survivors full hearings is not necessary
or appropriate. Retrieved on 10/06/2021, from
https://www.dvleap.ora/leaal-resource-librarv-cateaories/briefs-court-opinions .
The judge reversed the courts decision and stated
“The crisis is growing." LAWS OF 1992, ch. 111, § 1. "Domestic violence must be addressed
more widely and more effectively in our state." LA ws OF 1992, ch. 111, § 1. Since 1984, the
legislature has amended the domestic violence Prevention act several times to improve the
protection order process "so that victims have ... easy, quick, and effective access to the court
system." LA ws OF 1992, ch. 111, § 1. Through its actions "the legislature has sought to further
[prevent domestic violence] by taking clear, concrete actions to encourage domestic violence
victims to end abuse, leave their abusers, protect their children, and cooperate with law
enforcement and prosecution efforts to hold the abuser accountable." Danny v. Laidlaw Transit
Servs., 165 Wn.2d 200, 213, 193 P.3d 128 (2008).
Short-term protection orders in deference to other judicial proceedings require a victim of
domestic violence to come to court multiple times to face her or his abuser. Prolonged court
proceedings increase the risk of danger to a victim of domestic violence. Studies show an
increased risk of homicide during extended divorce and child custody proceedings.
JoanZorza.RecognizingandProtectingthePrivacyandConfidentiality Needs ofBattered Women,
29 FAM. L.Q. 273,290 (1995). Custody fights are "notoriously volatile." Pike v. Maguire, 47
Mass. App. Ct. 929, 716 N.E.2d 686, 688 (1999). Increased contact with an abuser may
increase the risk of harm to the victim. Champagne v. Champagne, 429 Mass. 324, 708 N.E.2d
100, 102 n.2 (1999). Thus, short-term relief does not fulfill the legislative intent of Washington's
Domestic Violence Prevention Act to afford victims of domestic violence with a valuable
instrument to increase safety for victims.
At least one other court has interpreted similar provisions of its state's domestic violence laws in
a manner similar to our holding. Parker v. Parker, No. C-130658, 2014- Ohio-5516, 2014 WL
7177914 (Ct. App. Dec. 17, 2014) (unpublished). In Parker, Cherilyn Parker requested a
five-year protection order from contact by her husband. The trial court, however, only entered a
one-year order because Parker earlier instituted divorce proceedings. An Ohio domestic
violence protection statute read that ”[t]he remedies and procedures provided in this section are
in addition to, and not in lieu of, any other available civil or criminal remedies," including divorce
proceedings. OHIO REV. CODE ANN.§ 3113.3 l(G). According to the appeals court, Parker
should not have been denied a civil protection order of sufficient duration simply

REASONS FOR GRANTING THE PETITION
because she had concurrently sought other legal remedies to remove herself from the danger of
domestic violence. The trial court's shortening of relief was an abuse of discretion since the
decision was not based on sound legal reasoning.
Parker v. Parker is an unpublished case from the Ohio Court of Appeals. Washington GR 14.1(b)
permits a citation to an unpublished decision from other
jurisdictions if the decision can be cited to as authority in that jurisdiction. In Ohio, all appellate
opinions issued after May 1, 2002 may be cited as legal authority and weighted as deemed
appropriate without regard to whether the opinion was published. Omo REP. OP. R. 3.4 ("Use of
Opinions").
The trial court holds discretion when entertaining petitions for domestic violence protection
orders. Hecker v. Cortinas, 110 Wn. App. at 869 (2002). We will not disturb such an exercise of
discretion on appeal absent a clear showing of abuse. Hecker v. Cortinas, 110 Wn. App. at 869.
An abuse of discretion is found when a trial judge's decision is exercised on untenable grounds
or for untenable reasons. State v. Powell, 126 Wn.2d 244,258, 893 P.2d 615 (1995); Wilson v.
Horsley, 137 Wn.2d 500, 505, 974 P.2d 316 (1999). A trial court abuses its direction if its
decision was reached by applying the wrong legal standard. State v. Rafay, 167 Wn.2d 644,
655, 222 P.3d 86 (2009).
The trial court need not have granted Anna Juarez a one-year protection order if tenable
grounds supported the refusal. Nevertheless, the trial court denied Anna Juarez's request for a
one-year domestic violence protection order in order to maintain the status quo until the parties
could conduct a hearing in the marital dissolution proceeding. This decision contradicted the
language of RCW 26.50.025(2). Therefore, we hold that the trial court abused its discretion. The
issuance of the short-term order exposed Anna to the potential for additional violence because
she needed to return to court to repeatedly confront her abuser.
Our dissenting brother expresses concern that our ruling will make victims of
domestic violence less safe because experienced jurists lack prescience to know which party is
truthful. He believes that, when faced with uncertain claims of domestic violence, trial courts
would rather enter immediate, but limited, relief. He characterizes most domestic violence
protection order petitions as uncertain claims. He predicts that, with our ruling, most trial courts
will now deny any relief.
Our dissenting brother does not identify what he considers to be "uncertain claims." I f he
means, by "uncertain claims," a claim that the petitioner fails to prove at the hearing by a
preponderance of the evidence, the trial court should deny relief anyway. I f our brother means,
by "uncertain claims," claims that the petitioner proves by a preponderance of evidence but fails
to remove all doubt as to the claim's validity, nothing in the Domestic Violence Prevention Act
empowers the trial court to shorten the duration of the relief because of some reasonable doubt.

REASONS FOR GRANTING THE PETITION
Our brother's prediction of dire results depreciates the abilities and wisdom of Washington Trial
Judges. Werecognizethedifficultyofatrialjudgediscemingthetruth at a show cause hearing.
Nevertheless, the law compels a judge to perform her or his best and to issue a ruling as to
whether domestic violence occurred and protection is needed. Although we recognize our trial
judges as being overworked with crowded dockets, we trust our judges to take the time and
conduct a hearing sufficient to arrive at the truth.
We believe our trial judges normally possess the ability to find the truth. An underlying
assumption of the dissenting opinion may be that the trial court, during a martial dissolution suit,
may be able to better arrive at the truth than the trial court during a Domestic Violence
Prevention Act hearing. We may agree that the trial court, during a marriage dissolution hearing,
may be able to fashion more comprehensive relief. Nevertheless, we disagree that the trial court
may more ably arrive at the truth in a marital dissolution hearing than a domestic violence
protection order hearing. The martial dissolution docket is as crowded as a domestic violence
protection order docket. Our dissenting brother also fails to note that, if trial courts possess the
predilection of granting immediate, but short-term relief in uncertain cases, the trial court is as
likely to do so during the martial dissolution docket as during the domestic violence docket.”
Retrieved on 10/06/2021, from
https://drive.aooole.eom/file/d/1RMJZ6iQvl2e0S6KZpZ4Rw2vPS6vGfCR8/view.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

IVIdU>)2jqZI

